Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





    OVERSIGHT OF STATES’ 

  SUBGRANTEE MONITORING IN 

  THE FOSTER CARE PROGRAM





                     Inspector General

                      December 2004
                     OEI-05-03-00060
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆
   A B S T R A C T




                   As part of a broad Office of Inspector General effort to review the
                   management of grant programs under the Department of Health and
                   Human Services (HHS), this inspection assesses States’ monitoring of
                   subgrantees in the Title IV-E foster care program, as well as Federal
                   oversight of States’ monitoring. This study is part of a series. The
                   companion report, “States’ Monitoring of Subgrantees in the Foster
                   Care Program: A Description of Six States’ Systems”
                   (OEI-05-03-00061), seeks to provide descriptive information to assist
                   stakeholders in addressing the problems identified in this report.

                   In this inspection, we reviewed monitoring files and interviewed staff in
                   six States that administer over 45 percent of the $5 billion that the
                   Administration for Children and Families (ACF) awards annually for
                   the foster care program. We found that the monitoring systems used by
                   three States are inadequate according to criteria we developed based on
                   Federal grants management requirements. In addition, three States do
                   not communicate required information to subgrantees.

                   The ACF is responsible for Federal oversight of the foster care program.
                   Based on interviews with ACF staff and a review of ACF oversight
                   mechanisms, we found that oversight of States’ systems for monitoring
                   subgrantees receives minimal attention by ACF. The ACF’s only direct
                   tool for overseeing States’ monitoring of subgrantees is the Single Audit,
                   and this inspection found major concerns with its scope, quality, and
                   functioning as a tool for assessing States’ subgrantee monitoring. We
                   recommend that ACF hold States accountable for adhering to grants
                   management requirements relating to the oversight of subgrantees.
                   Further, ACF should work with HHS to make the Single Audit a more
                   effective tool for overseeing States’ monitoring of subgrantees.




 OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   i
∆      E X E C U T I V E                        S U M M A R Y



                  OBJECTIVES
                  o 	 To assess the extent to which selected States adequately monitor
                      subgrantees in the foster care program.
                  o 	 To review the extent to which the Administration for Children and
                      Families ensures that States adequately monitor subgrantees in
                      the foster care program.


                  BACKGROUND
                  Each fiscal year the Administration for Children and Families (ACF)
                  awards approximately $5 billion to States, which serve about 800,000
                  children under the Federal Title IV-E foster care program. Most States
                  award some portion of the Federal foster care grant to subgrantees to
                  provide core program services, such as child placement and residential
                  care.

                  States are required, according to Federal grants management
                  requirements that are incorporated into 45 CFR Part 74, to: (1) monitor
                  subgrantees “as necessary” to ensure they comply with Federal fiscal
                  and program regulations, use funds for authorized purposes, and
                  achieve performance goals, and (2) communicate specific information
                  about the Federal award and accompanying Federal requirements to
                  subgrantees. To assess whether States were monitoring their
                  subgrantees “as necessary,” it was necessary to define measurable
                  criteria. We developed specific evaluation criteria which we presented
                  to staff in the Office of the Assistant Secretary for Administration and
                  Management (ASAM). The ASAM staff stated that they found these
                  criteria both reasonable and consistent with Federal requirements.
                  Refer to the Methodology Section for a summary of our evaluation
                  criteria.

                  The ACF must ensure that States administer their foster care programs
                  in compliance with Federal requirements. These requirements include
                  the Federal grants management requirements described above.

                  We conducted site visits to six States representing over 45 percent of
                  Title IV-E spending. We reviewed documentation of States’ monitoring
                  for 15 to 19 subgrantee files in each State and interviewed monitoring
                  staff. We conducted phone interviews with ACF staff in all 10 regions
                  and central office, and reviewed relevant Federal requirements, as well
                  as policies and procedures for ACF oversight mechanisms. We reviewed



OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   ii
E X E C U T I V E                   S U    M M A R Y


                   relevant findings from States’ Single Audits for fiscal years 2001 and
                   2002.

                   This study is part of a broad Office of Inspector General effort to
                   review the management of grant programs and awards under the
                   Department of Health and Human Services (HHS). We will provide
                   the results of this study to ACF, ASAM, the Assistant Secretary for
                   Budget, Technology, and Finance, and to the Office of Management
                   and Budget’s interdepartmental task force on subgrantee monitoring.
                   This study is also part of a series. The companion report, “States’
                   Monitoring of Subgrantees in the Foster Care Program: A
                   Description of Six States’ Systems” (OEI-05-03-00061), seeks to
                   provide descriptive information on our study of States’ monitoring
                   practices to assist stakeholders in addressing the problems identified
                   in this report.


                   FINDINGS
                   Monitoring systems in three States are inadequate according to our
                   evaluation criteria. In addition, three States do not communicate
                   required information. Three of the six selected States’ fiscal or
                   program monitoring mechanisms are inadequate according to our
                   evaluation criteria. Two of these three States both lack an adequate
                   monitoring system and do not communicate required grants
                   management information to subgrantees. A fourth State has an
                   adequate monitoring system, but does not communicate required grants
                   management information to subgrantees.
                   Oversight of States’ systems for monitoring subgrantees receives
                   minimal attention by ACF. We found that ACF’s focus and priorities, in
                   relation to State oversight, do not encompass subgrantee monitoring.
                   The ACF does not routinely communicate grants management
                   requirements to States. All ACF respondents report that their
                   oversight of States emphasizes program administration in general,
                   rather than specifically focusing on reviewing States’ subgrantee
                   monitoring. The ACF staff in half of all regions are not aware of how
                   States monitor their subgrantees.

                   The only direct tool ACF uses for overseeing States’ monitoring of
                   subgrantees is the States’ Single Audit, which has limited utility. The
                   Single Audit does not assess States’ monitoring of subgrantees that
                   States classify as “vendors.” Four States in our study classified most or
                   all of their foster care subgrantees as “vendors” rather than

 OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   iii
E X E C U T I V E                   S U    M M A R Y


                   “subrecipients,” even though both provide core services, such as child
                   placement and residential care. In addition, this inspection found major
                   concerns with the State Single Audit’s scope, quality, and functioning as
                   a tool for assessing States’ subgrantee monitoring.


                   RECOMMENDATIONS
                   Without quality monitoring, States and ACF may have little assurance
                   that subgrantees are providing appropriate, quality services to children
                   in a fiscally responsible manner. The States and counties we reviewed
                   fund more than 1,500 foster care subgrantees. Given the extent that
                   States appear to be using subgrantees to carry out fundamental foster
                   care services, lax monitoring can have a significant adverse impact.
                   The ACF should hold States accountable for adherence to grants
                   management requirements relating to the oversight of subgrantees.
                   The ACF should take the following actions to ensure that States are
                   held accountable for adhering to major Federal grants management
                   requirements in their administration and monitoring of foster care
                   subawards.
                   o 	 The ACF should develop a system for routinely communicating
                       grants management responsibilities to States.
                   o 	 The ACF should develop specific requirements that clarify States’
                       responsibilities for monitoring of subgrantees. These
                       requirements should provide clear standards for States’
                       monitoring systems. The ACF could adopt the criteria used for
                       this study or work with ASAM to develop their own standards.
                   o 	 The ACF should utilize its existing oversight mechanisms to
                       ensure States have systems in place to adhere to grants
                       management requirements related to their monitoring of
                       subgrantees.
                   The ACF should work with HHS to make the Single Audit a more
                   effective tool for overseeing States’ monitoring of subgrantees. In
                   order to help improve the Single Audit as a monitoring tool, ACF should
                   support and promote intergovernmental initiatives to improve the
                   Single Audit. In addition, ACF should provide clarification to States
                   specifying which foster care subgrantees provide core program services
                   and should thus be considered “subrecipients” for the Single Audit.




 OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   iv
E X E C U T I V E                   S U    M M A R Y 




                   AGENCY COMMENTS
                   In its comments on our draft reports ACF concurs with the objectives of
                   our recommendations and describes its intended corrective actions,
                   which are generally consistent with our suggestions. The ASAM
                   supports our recommendations to ACF.

                   The ACF stated it is considering taking a number of actions in response
                   to our recommendations, including (1) referring to grants management
                   requirements and highlighting the importance of subrecipient
                   monitoring in award letters, (2) adopting a qualitative version of the
                   monitoring criteria we used in this inspection as part of its field
                   reviews, (3) including specific reference to subrecipient monitoring
                   responsibilities in the Title IV-E Compliance Supplement to OMB
                   Circular A-133, (4) potentially issuing a program instruction to State
                   grantees clarifying the distinction between “subrecipients” and
                   “vendors,” (5) exploring further ways to strengthen the Single Audit,
                   and (6) providing technical assistance to States around their monitoring
                   systems. We recognize ACF’s responsiveness in taking these actions,
                   but reiterate the need for developing clear standards for States’
                   monitoring systems and holding States accountable to these standards
                   using ACF’s current oversight mechanisms.




 OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   v
∆   T A B L E            O F             C O N T E N T S



         ABSTRACT ....................................................... i



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii 



         INTRODUCTION ................................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                     States’ Monitoring of Subgrantees . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                     ACF Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 

                     A : Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 


                     B : State Practices for Communicating Grants Information . . . . 30 


                     C : Evaluation Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 


                     D : Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

∆   I N T R O D U C T I O N


                  OBJECTIVES
                  o 	 To assess the extent to which selected States adequately monitor
                      subgrantees in the foster care program.
                  o 	 To review the extent to which the Administration for Children and
                      Families ensures that States adequately monitor subgrantees in
                      the foster care program.


                  BACKGROUND
                  The Administration for Children and Families (ACF) administers the
                  foster care program which is authorized under Title IV-E of the Social
                  Security Act and which awards nearly $5 billion, each fiscal year, in
                  entitlement grants to States who serve about 800,000 children under
                  Title IV-E annually.1 Most States subaward some portion of their Title
                  IV-E funds to subgrantees to carry out core program activities such as
                  child placement and residential care. For the purposes of this report,
                  we use “subgrantee” as a generic term to mean an entity that receives
                  Federal funds to provide core foster care services through an agreement
                  with a State.2
                  Recent Federal Interest in Subgrantee Monitoring
                  In 2001, the Secretary of the Department of Health and Human
                  Services (HHS) created an initiative to improve the management of
                  HHS grant programs. The Assistant Secretary for Administration and
                  Management (ASAM) is taking a lead role in this effort. The Office of
                  Inspector General (OIG) has also undertaken a broad effort to review
                  the control, effectiveness, and value of HHS grant programs.

                  Federal stakeholders, including the Office of Management and Budget
                  (OMB) and Congress, have expressed concern that States are not
                  adequately monitoring their subgrantees, and that this may reflect a
                  lack of Federal agency oversight. Based on this concern, OMB created
                  an interdepartmental Task Force on Subrecipient Monitoring in 2002.3
                  This task force is reviewing regulations and policies to identify whether
                  Federal guidance and oversight of subgrantee monitoring is adequate.
                  Congress has also shown its concern by requesting reviews of
                  subgrantee monitoring in other HHS programs.4
                  This inspection provides an assessment of States’ monitoring systems.
                  A companion report, “States’ Monitoring of Subgrantees in the Foster
                  Care Program: A Description of Six States’ Systems”


OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   1
I N T R O D        U C T        I O N


                    (OEI-05-03-00061), seeks to provide descriptive information to ACF and
                    States on how selected States monitor their subgrantees. We hope this
                    descriptive information will assist stakeholders in addressing the
                    problems identified in this report.
                    Increased Use of Subgrantees in the Foster Care Program
                    According to a 2001 study, nearly all States use subgrantees to provide
                    core foster care services to at least some of their foster children.5
                    Foster care services provided by subgrantees include child placement
                    services, such as recruiting and training foster families, placing children
                    with specific families, and arranging services for these children while in
                    their placements. Subgrantees may also provide services related to
                    residential care, using professional staff to care for foster children in
                    group homes, residential institutions or schools, mental health, or other
                    specialty treatment facilities, and emergency shelters.

                    The increasing privatization of foster care services has led to concerns
                    about the accountability of subgrantees within the foster care program.
                    Recent State audits in one State have substantiated the need for
                    concern, and demonstrated the significant consequences of poor
                    monitoring. In 2000, Ohio’s State Auditor found that more than $9
                    million in foster care funds had been misspent by private agencies on
                    housing and automobile leases, private jet fuel, and other unallowable
                    purchases. These audits uncovered “lax control over Federal foster care
                    money, a lack of financial and program monitoring, abuse of public
                    funds, and the compromised care of some children.”6
                    Without adequate oversight of foster care subgrantees, the safety and
                    welfare of thousands of children a year are potentially jeopardized and
                    millions of dollars in annual Federal funds are vulnerable to abuse.
                    Grants Management Overview
                    During our review period, responsibilities for States’ grant
                    administration of Federal foster care funds were delineated by two sets
                    of Federal requirements:
                    o 	 the Uniform Administrative Requirements for Awards and
                        Subawards (45 CFR Part 74),7 and
                    o 	 the Single Audit Act (implemented by OMB Circular A-133).

                    Specifically, 45 CFR Part 74 contains grants management regulations
                    and incorporates OMB Circular A-133 by reference. Together, both
                    documents set forth the major HHS grants management requirements,
                    including a subset of requirements that are specifically related to the

 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   2
I N T R O D        U C T        I O N


                    administration of subawards. This subset provides both general
                    directives for States’ monitoring of subgrantees’ fiscal and program
                    performance, as well as some specific requirements. Recently, HHS
                    redesignated Title IV-E State grants to be subject to 45 CFR Part 92,
                    which also incorporates OMB Circular A-133 by reference and is
                    otherwise similar to 45 CFR Part 74.
                    States’ Monitoring of Subgrantees
                    According to OMB Circular A-133, States must monitor subgrantees’
                    program and fiscal performance and communicate specific information
                    to subgrantees as part of administering the subaward.
                    Monitoring Subgrantees’ Program and Fiscal Performance. Federal grants
                    management requirements8 generally require States to:
                    o 	 Ensure that subgrantees are complying with program
                        requirements and achieving performance goals.
                    o 	 Ensure subgrantees are complying with fiscal requirements, such
                        as having appropriate fiscal controls in place, and are using
                        awards for authorized purposes.

                    These requirements do not further specify how States should monitor
                    subgrantees. States can ensure that subgrantees are meeting these
                    requirements through a variety of mechanisms, including progress
                    reports, site visits, financial reports, independent (third party) financial
                    audits, and/or internal (State-conducted) financial audits.

                    Under OMB Circular A-133, certain subgrantees must have a specific
                    type of independent audit, called a Single Audit. Single Audits include
                    a traditional financial audit of subgrantees’ basic financial statements,
                    as well as an auditor’s report on subgrantees’ internal controls and an
                    opinion on subgrantees’ compliance with requirements of major Federal
                    programs.

                    Subgrantees exempt from the Single Audit include: all for-profit
                    subgrantees, non-profit subgrantees expending less than $500,000 in
                    total Federal awards, and “vendors.” States use Federal requirements
                    delineated in OMB Circular A-133, §__.210 to determine whether
                    subgrantees are “subrecipients” and thus subject to a Single Audit, or
                    “vendors” and not subject to a Single Audit.

                    These requirements characterize “subrecipients” as subgrantees who
                    carry out the program: they may determine eligibility, make
                    programmatic decisions, have their performance judged against the


 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM    3
I N T R O D        U C T        I O N


                    program objectives, and must comply with program requirements.
                    “Vendors” are characterized as subgrantees who provide goods and
                    services that are ancillary to the operation of the program: they provide
                    goods and services within normal business hours to many different
                    purchasers, operate in a competitive environment, and are not subject
                    to program compliance requirements. The requirements direct States to
                    use their judgment in making this determination. Some States have
                    defined foster care subgrantees as “subrecipients,” and other States
                    defined subgrantees providing the same core services as “vendors.” As
                    mentioned earlier, this report will use “subgrantee” as a generic term
                    that does not indicate whether the State actually considers the entity to
                    be a “subrecipient” or “vendor.”
                    Administering the Subaward. Federal grants management requirements
                    also direct States to take other actions to manage their subawards. For
                    instance, States are required to:
                    o   Inform subgrantees that the subaward includes Federal funds.

                    o   Communicate relevant Federal requirements to subgrantees.9

                    Subgrantees must receive this information at the time of the award so
                    they are aware of Federal requirements as they carry out program
                    activities. States may use award documents, such as contracts, to
                    communicate this required information to subgrantees.
                    ACF’s Oversight of States’ Monitoring of Subgrantees
                    Just as States must ensure that subgrantees comply with regulations,
                    ACF must ensure that States administer their foster care programs in
                    compliance with Federal requirements. These requirements include the
                    grants management requirements described above.

                    The ACF is responsible for overseeing States’ compliance with Federal
                    requirements set out in their Title IV-E State plan. As part of their
                    State plan, States submit materials demonstrating that State policies
                    reflect compliance with specific Federal requirements. These
                    requirements include HHS grants management regulations, contained
                    in 45 CFR Part 74, which sets forth the requirements for States’
                    monitoring of subgrantees mentioned above. As a condition of receiving
                    Federal Title IV-E funds, States must agree to administer their
                    program “. . . in accordance with the provisions of this State plan, Title
                    IV-E of the Act, and all applicable Federal regulations . . . .”10 The ACF
                    determines whether to approve submitted State plan materials, and
                    retains the authority to determine “. . . that a previously approved plan


 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   4
I N T R O D        U C T        I O N


                    no longer meets the requirements for approval . . . .”11 Finally, ACF is
                    responsible for ensuring States’ compliance with the State plan. The
                    Social Security Act authorizes ACF to establish a review to determine
                    whether State programs are in substantial conformity with these
                    provisions.12
                    In addition to ensuring that States are in compliance with their State
                    plan, ACF is required to review State Single Audit findings it receives
                    that relate to the Title IV-E program.13 As part of States’ Single Audit,
                    auditors employ various procedures to assess whether States comply
                    with Federal grants management requirements in their oversight of
                    subgrantees. The OMB Circular A-133 provides auditors with guidance
                    and suggested audit procedures for making this assessment; however,
                    auditors have discretion about the specific methods to employ. Auditors
                    must report any findings of non-compliance, and Federal agencies must
                    ensure that States take corrective action on these findings.14
                    The ACF’s Administration of the Foster Care Program
                    In addition to understanding grants management and subgrantee
                    monitoring, it is important to have an understanding of ACF’s broader
                    oversight of the foster care program.

                    As part of ACF’s overall administration of the foster care program, ACF
                    has several mechanisms to ensure that States are in compliance with
                    applicable laws and regulations. Since 2001, ACF has used the Child
                    and Family Services Review (CFSR) as the primary review to ensure
                    compliance with States’ Title IV-E State plan. The CFSR is designed to
                    assess certain aspects of States’ systemic functioning and to assess
                    States’ programmatic outcomes in relation to child safety, permanency,
                    and well-being.

                    To oversee the financial aspects of States’ foster care administration,
                    ACF employs the Title IV-E Eligibility Review and reviews States’
                    quarterly financial reports to ensure that States’ requests for Federal
                    funds are appropriate. Finally, as previously mentioned, ACF is
                    required to review all findings from State-level Single Audits related to
                    States’ administration of the foster care program. In addition to
                    assessing States’ subgrantee monitoring, Single Audit findings may
                    relate to several other areas, including such things as States’ financial
                    controls, allowable activities and costs, and eligibility.
                    Related Work by the Office of Inspector General
                    The OIG has reviewed subgrantee monitoring in several HHS programs
                    as part of an OIG effort to examine grants management in HHS

 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   5
I N T R O D        U C T        I O N


                    programs. In response to a request by the Senate Finance Committee,
                    OIG has recently issued a series of reports examining the Health
                    Resources and Services Administration’s oversight of Ryan White CARE
                    Act funds. In addition, OIG issued 15 audit reports in 2003 on State
                    and city monitoring of subgrantees receiving Public Health
                    Preparedness and Response to Bioterrorism funds, citing that some
                    States and major cities lacked appropriate monitoring mechanisms.15


                    SCOPE
                    This inspection focused solely on how States monitor subgrantees
                    providing residential care or child placement services to Title IV-E
                    eligible children. It did not examine States’ monitoring of subgrantees
                    that provide only training, adoption, or independent living services
                    under the Title IV-E program.

                    States’ monitoring of subgrantees was evaluated based on the design
                    and functioning of their monitoring systems. We assessed only whether
                    or not States’ monitoring systems met our criteria, and not the extent to
                    which they deviate from the criteria. Further, States were not
                    evaluated on the quality of their monitoring mechanisms, nor were they
                    evaluated on their subgrantees’ fiscal and programmatic performance.


                    METHODOLOGY
                    Assessment of States’ Monitoring
                    We examined six States’ subgrantee monitoring through a review of
                    States’ subgrantee files and onsite interviews with staff. We compared
                    States’ monitoring systems to criteria we developed, based on Federal
                    grants management requirements.

                    Our States included Texas, Michigan, Massachusetts, North Carolina,
                    Pennsylvania, and California. Overall, the 6 States comprise over
                    45 percent of the Federal fiscal year (FY) 2002 Title IV-E funds and are
                    located in 6 of the 10 ACF regions. In four of the States, the foster care
                    program was directly administered by the State. In two of the States,
                    the program was jointly administered by the State and the counties. In
                    these States, we selected the two counties serving the largest number of
                    Title IV-E children for our review. In each State, subgrantees provide a
                    portion of foster care services, and are used extensively in some cases:
                    one selected county provides 85 percent of foster care services through
                    subgrantees. The States and counties we reviewed fund more than
                    1,500 foster care subgrantees.

 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   6
I N T R O D        U C T        I O N


                    Staff Interviews. To understand the complexities of State and county
                    monitoring systems, we conducted onsite interviews with staff members
                    responsible for monitoring subgrantees. Typically, this included
                    interviews with fiscal, program, and licensing staff. In county-
                    administered States, we interviewed State and county staff responsible
                    for monitoring county subgrantees. We also requested documentation of
                    any policies, protocols, and guidance related to subgrantee monitoring.
                    Subgrantee File Review. After gaining an understanding of how States
                    and counties intended to monitor their subgrantees, we reviewed
                    selected subgrantee files to verify whether monitoring systems were
                    functioning as described. To verify that State and county monitoring
                    systems were functioning as reported, we selected and reviewed files for
                    15 to 19 subgrantees in each State from State FY 2003. In county-run
                    States, we selected eight subgrantees from each county. To represent
                    the various types of subgrantees, we selected both low and high volume
                    child placement subgrantees, as well as both low and high volume
                    residential care subgrantees in each State. Overall, we reviewed files
                    for 98 subgrantees. For a full discussion of the methodology, please see
                    Appendix A.
                    Evaluation Criteria. Federal grants management requirements provide
                    that States must “Monitor the activities of subrecipients as necessary to
                    ensure that Federal awards are used for authorized purposes in
                    compliance with laws, regulations, and the provisions of contracts or
                    grant agreements and that performance goals are achieved.”16 The
                    HHS has issued no further guidance or delineation on what kind or
                    level of monitoring is considered “necessary.” Thus, to assess whether
                    States were monitoring their subgrantees “as necessary,” it was
                    essential that we define measurable evaluation criteria. In order to
                    accomplish this, we consulted grants management guidance from other
                    agencies, industry guidance, and grants management reports from
                    various Federal agencies.

                    We developed these evaluation criteria as a set of minimum standards,
                    which would be specific enough to be measurable, yet general enough to
                    allow for variation in how States execute their monitoring of
                    subgrantees.

                    Our criteria set forth the following framework: States must have at
                    least one fiscal monitoring mechanism and one program monitoring
                    mechanism in place. Each of these monitoring mechanisms must
                    incorporate three components. First, they must collect information.

 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   7
I N T R O D        U C T        I O N


                    Second, there must be a means to review the information collected.
                    Finally, there must be a system to follow up on identified problems.17
                    In addition to assessing States’ monitoring systems, we also examined
                    their adherence to other grants management requirements. These
                    requirements provide that States must communicate basic information
                    to their subgrantees—States must at least identify that the funds are
                    Federal and must inform subgrantees of applicable grants management
                    requirements. Appendix B details the specific grants management
                    requirements we examined related to communicating grants
                    management information. See the box below for a summary of our
                    evaluation criteria.



             FEDERAL REQUIREMENT                                             EVALUATION CRITERIA
                                        Program and Fiscal Monitoring

  States must:
  --“monitor the activities of subrecipients as
                                                     States must have at least:
  necessary to ensure that Federal awards are
  used for authorized purposes in compliance with
                                                     --one fiscal monitoring mechanism, and
  laws, regulations, and the provisions of contracts
  or grant agreements and that performance goals
                                                     --one program monitoring mechanism
  are achieved.”
  [OMB Circular A-133, §__.400(d)(3)]
                                                         Each mechanism must be used to collect
                                                         and review information on subgrantees,
  --“manage and monitor each project, program,
                                                         and must include follow up on identified
  subaward, function or activity supported by the
                                                         problems.
  award.”
  [45 CFR § 74.51(a)]

                                Communication of Required Information

  States must provide subgrantees with the “best
  information available to describe the Federal                States must at least inform subgrantees that the
  award.”                                                      grant includes Federal funds.
  [OMB Circular A-133, §__.400(d)(1)]

  States must advise subgrantees of requirements
  imposed on them by Federal laws and                          States must inform subgrantees of Federal
  regulations.                                                 grants management requirements.
  [OMB Circular A-133, §__.400(d)(2)]




 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM                  8
I N T R O D        U C T        I O N


                    Each program and fiscal monitoring mechanism was held to the
                    following standards:
                    o 	 Mechanism design is appropriate: The mechanism must be
                        designed to monitor all subgrantees.
                    o 	 Mechanism is functioning: Use of the mechanism must be
                        documented for 75 percent of the files reviewed. While we would
                        expect the monitoring to be documented in all files, we wanted to
                        allow for a small amount of error in States’ documentation of their
                        monitoring.

                    In States where subgrantees are considered to be “subrecipients” and
                    thus required to have a Single Audit, we reviewed States’ systems in
                    relation to specific OMB Circular A-133 requirements. Namely, we
                    assessed whether States followed up on all Single Audit findings within
                    the required 6-month period.

                    We presented our draft criteria to ASAM staff who found these criteria
                    to be reasonable and consistent with Federal requirements.18 Appendix
                    C contains a further discussion of the development of our evaluation
                    criteria.

                    In a third report, “Protocol for Assessing States’ Monitoring of
                    Subgrantees,” (OEI-05-03-00062) we provide more detailed information
                    about how we applied our criteria, including the methodology and data
                    collection protocols we used.
                    Assessing States’ Monitoring Overall
                    Overall, States must meet each element of our evaluation criteria in
                    order to be considered as having adequate monitoring mechanisms and
                    communication strategies. In States where the foster care system is
                    administered by counties, both selected counties must meet each
                    element of our criteria for the State to be considered in accordance with
                    our criteria overall. We evaluated States in this manner because, as
                    primary recipients of Federal foster care funds, States are the entities
                    ultimately responsible to ensure that counties have appropriate systems
                    for monitoring their subgrantees.
                    Review of ACF Oversight
                    To understand how ACF ensures that States monitor their foster care
                    subgrantees, we collected and reviewed information from a variety of
                    sources. We conducted phone and in-person interviews with ACF fiscal
                    and program staff in the central office and in all 10 ACF regions. We
                    reviewed ACF’s major oversight mechanisms, including protocols for the

 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   9
I N T R O D        U C T        I O N


                    CFSR, Title IV-E Eligibility Review, Title IV-E State plan, and the
                    quarterly financial reports. Finally, we analyzed all Single Audit
                    findings from any of the 50 States related to subgrantee monitoring
                    under the Title IV-E program for FYs 2001 and 2002.



                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   10
    ∆
      F I N D I N G S

         Monitoring systems in three States are           Monitoring systems in three of the six
inadequate according to our evaluation criteria.          selected States are inadequate
                                                          according to criteria we developed based
   In addition, three States do not communicate
                                                          on grants management requirements.
                            required information.
                                                          Specifically, these States lack adequate
                           fiscal or program monitoring mechanisms. Two of these three States
                           lack adequate monitoring systems and do not communicate required
                           grants management information.

                           A fourth State does not communicate required grants management
                           information to subgrantees. (See Table A.)


                                                                      TABLE A
                          States' Adherence with Criteria Based on Federal Grants
                          Management Requirements
                                                                    State State          State     State   State   State
                                  Requirement                         A     B              C         D       E       F
                           Fiscal Monitoring                           _          _      Yes       Yes     Yes     Yes

                           Program Monitoring                        Yes        Yes        _       Yes     Yes     Yes

                           Communicating Required
                                                                       _        Yes        _        _      Yes     Yes
                           Information
                           In Adherence with
                                                                       _          _        _        _      Yes     Yes
                           Criteria
                           Source: OEI State Site Visit Data


                           Three States’ program or fiscal monitoring systems are inadequate
                           according to our evaluation criteria.
                           As mentioned above, three States lack an adequate monitoring system,
                           either because they do not have an adequate program monitoring
                           mechanism or because they lack an adequate fiscal monitoring
                           mechanism.
                           One State does not have an adequate program monitoring mechanism
                           according to our evaluation criteria. Five of the six selected States have at
                           least one program monitoring mechanism that meets our criteria. All
                           five of these States use comprehensive licensing site visits to monitor
                           their subgrantees. In addition, two of these five States conduct at least
                           one additional program site visit to assess subgrantees’ program
                           performance. The one State, State C, that does not have an adequate


        OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM                     11
F   I N D I N G           S


                        program monitoring mechanism, has designed an appropriate
                        mechanism, but the mechanism is not functioning, as designed, for at
                        least 75 percent of selected subgrantees. (See Table B.)


                                                                   TABLE B
                      Adherence with Program Monitoring Criteria
                                                                    State State         State   State   State   State
                                                                      A     B             C       D       E       F
                       Mechanism design is
                                                                     Yes        Yes      Yes    Yes     Yes     Yes
                       appropriate
                       Mechanism is functioning                      Yes        Yes        _    Yes     Yes     Yes

                       At Least One Program
                       Monitoring Mechanism in                      Yes         Yes        _    Yes     Yes     Yes
                       Adherence with Criteria
                       Source: OEI State Site Visit Data


                        Like the five other States, State C conducts licensing site visits in order
                        to monitor the program performance of subgrantees. State C intends to
                        conduct annual licensing site visits for all subgrantees, but only 7 of the
                        16 selected subgrantees in the State had a licensing site visit
                        documented in their files. Essentially, State C did not ensure that more
                        than half the selected subgrantees were relicensed before their licenses
                        expired, resulting in foster children being cared for by unlicensed
                        providers.

                        Monitoring staff in State C report that they are severely understaffed
                        and their first priority is to respond to complaints. They report that this
                        leaves inadequate resources available for the annual licensing visits. As
                        a result, this State plans to reduce its monitoring to include licensing
                        visits for only 10 percent of all foster care subgrantees each year. The
                        State will relicense the remaining subgrantees using a desk review of
                        materials submitted by subgrantees.
                        Two States do not have an adequate fiscal monitoring mechanism according to
                        our evaluation criteria. Four of the six selected States have at least one
                        fiscal monitoring mechanism that meets our criteria. For three of these
                        States, this mechanism is an audit, and the fourth State uses a State
                        review of financial information. While the other two States also employ
                        audits as their fiscal monitoring tool, their systems do not meet our

    OEI-05-03-00060     OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM                   12
F   I N D I N G           S


                        criteria. State A’s use of an audit to monitor subgrantees is inadequate
                        because of flaws in the mechanism’s design, as well as because the audit
                        does not function as designed. State B’s audit mechanism is
                        appropriately designed, but is not used as designed. (See Table C.)


                                                                    TABLE C
                      Adherence with Fiscal Monitoring Criteria
                                                                    State State          State   State   State   State
                                                                      A     B              C       D       E       F
                       Mechanism design is
                                                                          _      Yes      Yes    Yes     Yes      Yes
                       appropriate
                       Mechanism is functioning                           _       _       Yes    Yes     Yes      Yes

                       At Least One Fiscal
                       Monitoring Mechanism in                            _       _      Yes     Yes     Yes      Yes
                       Adherence with Criteria
                       Source: OEI State Site Visit Data


                        The fiscal monitoring mechanism used in State A is not designed to
                        monitor all subgrantees, and thus does not meet our criteria. The State
                        requires only a subset of subgrantees to submit audits, based on the
                        type of services they provide. For example, only 10 of our 16 selected
                        subgrantees are required to submit audits.

                        The reason all subgrantees are not required to submit audits is that
                        State A uses two separate departments to monitor different subsets of
                        foster care subgrantees. One department requires all subgrantees it
                        monitors to submit an audit. The other department does not require an
                        audit, nor does this department use any other fiscal monitoring
                        mechanism to monitor subgrantees’ management of Title IV-E funds.

                        State A’s fiscal monitoring system is also not used as designed. While
                        all of the required audits were submitted, there was no evidence that
                        staff reviewed audits for our selected subgrantees. Further, even if the
                        review took place, but was undocumented, State staff reported that the
                        staff responsible for reviewing the audits have no financial training.
                        These staff only review an audit to verify that it “makes sense.”

                        State B’s use of audits is appropriately designed, but not functioning for
                        at least 75 percent of the selected subgrantees, as specified by our
                        criteria. Our review of States’ subgrantee files found that only 11 of

    OEI-05-03-00060     OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM                    13
F   I N D I N G 
S


                        19 subgrantee files included documentation of audits. Since only
                        58 percent of selected subgrantees had documented audits, State B’s
                        fiscal monitoring does not meet our criteria.

                        Like State A, the division of monitoring responsibilities in State B offers
                        a plausible explanation as to how this monitoring lapse occurs. In this
                        State, the audit is reviewed by the rate-setting office and not by the
                        office that monitors subgrantees. Thus, the office that could use the
                        audit to monitor subgrantees does not receive or review the audit. The
                        rate-setting staff that review the audit reported that they do not see
                        much relevance in the task and described their review as general.19
                        Only in cases where the audit reveals basic solvency issues that may
                        warrant contract termination does the rate-setting office provide
                        information to the monitoring office.
                        Three States do not communicate required grants management information
                        to subgrantees.
                        Informing subgrantees that they are subject to Federal grants
                        management requirements is the first step toward ensuring that
                        subgrantees are appropriately carrying out Federal program activities
                        and spending Federal monies. Subgrantees who are not aware of these
                        responsibilities may inadvertently use Federal money for purposes not
                        intended by the State or ACF. They also may not understand or adhere
                        to program regulations detailing the provision of services to children.

                                                                    TABLE D
                      Adherence with Requirements to Communicate Grants Management
                      Information to Subgrantees
                                                                          State State State State State State
                                                                            A     B     C     D     E     F
                        Inform subgrantees that the
                                                                            _      Yes      _    _    Yes   Yes
                        grant includes Federal funds
                        Communicate Federal
                        requirements related to                             _      Yes      _   Yes   Yes   Yes
                        monitoring
                        In Adherence                                         _     Yes      _    _    Yes   Yes
                      Source: OEI State Site Visit Data

                        Three of the six selected States do not notify subgrantees that the funds
                        they receive are Federal foster care funds. (See Table D.) In fact, one of
                        these States misidentifies the funds as Social Services Block Grant
                        funds. Identifying the funds this way means that auditors conducting
                        Single Audits review subgrantee compliance with Social Services Block

    OEI-05-03-00060     OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM               14
     F   I N D I N G        S


                           Grant regulations and not with Federal foster care regulations, limiting
                           the potential usefulness of the Single Audit.

                           Two States do not communicate Federal requirements to subgrantees.
                           Specifically, State A does not inform subgrantees that they are subject
                           to Federal grants management requirements under 45 CFR Part 74, nor
                           does this State specifically inform subgrantees that they must allow
                           State and Federal entities access to records and must pass down all
                           Federal requirements to any of their subgrantees. State C informs
                           subgrantees of some Federal requirements, but does not inform
                           subgrantees that they must pass on all Federal requirements to their
                           subgrantees. See Appendix B for further analysis on State practices
                           related to communicating grants management information to
                           subgrantees.



   Oversight of States’ systems for monitoring               In reviewing ACF’s oversight of States,
subgrantees receives minimal attention by ACF.               we found that ACF’s focus and
                                                             priorities do not encompass subgrantee
                           monitoring. In fact, oversight of State’s subgrantee monitoring receives
                           very minimal attention by ACF.

                           The ACF’s formal communications with States reflect a lack of focus on
                           States’ subgrantee monitoring. We found no notification of grants
                           management requirements in the grants award letter or in ACF policy
                           manuals. The only means of communicating Federal grants
                           management requirements seem to be the Title IV-E State plan.

                           The Title IV-E State plan is designed to convey pertinent statutory and
                           regulatory requirements to States and to ensure that States have
                           policies in place that reflect compliance with these requirements.
                           However, the State plan is not routinely updated, so it does not function
                           as a routine mechanism for communicating requirements to States.
                           Since States report high rates of turnover and loss of experienced staff,
                           it is plausible that staff are not familiar with the grants management
                           requirements referenced in the State plan.

                           Interviews with State staff also suggest that ACF does not focus on
                           States’ subgrantee monitoring. Monitoring staff in three of the six
                           selected States report that they have no communication with ACF
                           around monitoring subgrantees. Monitoring staff in two additional
                           States describe very limited communication with ACF on this topic.
                           Further, States report that they only speak with ACF about monitoring


         OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   15
F   I N D I N G 
S


                      of subgrantees at the State’s request, and even then, the conversation is
                      limited to ACF answering specific questions raised by the State.

                      In half of all ACF regions, the staff we interviewed were not aware of
                      how States monitor their foster care subgrantees. Further, staff in 7 of
                      10 regions indicate that they only look into States’ monitoring of
                      subgrantees if they know something is wrong. Staff in one region noted,
                      “only if we get individual complaints are we aware of any [monitoring]
                      processes.”

                      Staff in three ACF regions report that they do not focus on subgrantee
                      monitoring because they believe that they lack the authority to do so.
                      These respondents believe they are not allowed to oversee States’
                      monitoring of subgrantees. For example, staff in one region indicated
                      that they “. . . have no business going beyond just whether the State has
                      a process [for subgrantee monitoring] . . .” and “. . . cannot assess
                      whether they are carrying out that process.” Staff in another ACF
                      region report that it is difficult to delve into States’ subgrantee
                      monitoring without a “way in” by means of an identified problem.

                      Staff in half of ACF regions indicate that they do not focus on
                      subgrantee monitoring because it is not a priority. Staff in one region
                      report that, although they make an effort to focus on monitoring, it is
                      not a priority from ACF’s central office. They believe ACF central office
                      priorities are reflected in the way they fund the regions. Staff in this
                      region assert that they do not receive the resources necessary to perform
                      the site visits they feel are crucial to oversee States’ subgrantee
                      monitoring. Staff in another region noted that States’ monitoring of
                      subgrantees is “not a burning issue for us . . . we are more concerned
                      about expenditure reports.”
                      The only direct tool ACF uses for overseeing States’ subgrantee monitoring
                      is the State Single Audit, which has limited utility.
                      According to ACF staff, the State Single Audit is the only tool used to
                      directly assess States monitoring of subgrantees. Staff in three regions
                      note that a decline in resources has made the State Single Audit more
                      important as they are less equipped to oversee States’ subgrantee
                      monitoring themselves. Staff in one region noted that “in the past we
                      did a lot more monitoring and now we just rely on the A-133 [Single
                      Audit].” In addition, staff in three regions report that they rely solely
                      on the auditor conducting the next year’s Single Audit to follow up on
                      findings related to States’ monitoring of subgrantees.



    OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   16
F 	I N D I N G 
S


                   The Single Audit has limited utility as a tool to oversee States’ monitoring.
                   Based on interviews with ACF central office and regional staff and our
                   analysis of the Single Audit and State Single Audit findings, we
                   identified the following concerns about the Single Audit process as a tool
                   to monitor States’ subgrantee monitoring:

                     1. 	 The State Single Audit may not assess State monitoring of all 

                          types of subgrantees. 


                     2. 	 The State Single Audit may miss problems with States’ 

                          monitoring of subgrantees. 


                     3. 	 Single Audit findings regarding subgrantee monitoring may not be
                          helpful in identifying and resolving problems.

                     4. 	 Single Audit findings regarding subgrantee monitoring are limited
                          in scope.

                     5. 	 Auditors’ skills and knowledge of the foster care program vary.

                   The State Single Audit may not assess States’ monitoring of all foster
                   care subgrantees, depending on whether subgrantees themselves are
                   considered “subrecipients” by the State, and thus subject to a Single
                   Audit. States use Federal Office of Management and Budget guidelines
                   to determine whether subgrantees should be classified as
                   “subrecipients” and thus subject to a Single Audit, or “vendors” and not
                   subject to a Single Audit. Auditors are expected to review States’
                   monitoring of subrecipients, but are not expected to review States’
                   monitoring of vendors, even though some vendors perform the same
                   functions as subrecipients. Auditors may choose to review a State’s
                   vendor monitoring;20 however, ACF would have no way of knowing
                   whether a lack of findings indicates that vendors were assessed and
                   found to have no compliance problems, or just not assessed. This is
                   especially worrisome because four of our six selected States consider
                   most or all of their subgrantees to be vendors.

                   During our interviews, ACF staff raised concerns that States’ Single
                   Audits may be missing problems with States’ monitoring of subgrantees.
                   Staff in at least four ACF regions either know of a specific monitoring
                   problem that the audit had missed, or believe that it would miss
                   problems with States’ monitoring of subgrantees. As staff in one region
                   stated, “. . . when [the auditors] write up the findings, all they have to
                   say is ‘we found no compliance problems’ . . . . I can’t feel confident that
                   this is a good Federal fiscal oversight tool.” In these instances, ACF


 OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   17
F   I N D I N G 
S


                      staff does not know whether the audit report truly reflects a lack of
                      findings, or whether it actually missed a problem.

                      In fact, at least one State that was not selected for our study exemplifies
                      this vulnerability: this State had major problems related to subgrantee
                      monitoring that the State Single Audit process missed. The State
                      Single Audit for Ohio did not identify subgrantee monitoring problems,
                      although serious problems were identified through other mechanisms.
                      In 2000, special audits conducted by Ohio’s Auditor of State discovered
                      that more than $9 million in foster care funds had been misspent by
                      subgrantees that counties treated as “vendors.” It is possible that these
                      problems were not caught because the Single Audit does not typically
                      review how States monitor their vendors.21
                      Even when the State Single Audit report does contain subgrantee
                      monitoring findings, they are often limited in scope. Nearly half of the
                      subgrantee monitoring findings we reviewed do not provide any
                      systemic information about the quality of States’ monitoring systems.
                      Out of all 50 States’ Single Audits over a 2-year period, we found
                      11 audits with a subgrantee monitoring finding related to the Title IV-E
                      program. Only 4 of these 11 audits included findings containing
                      substantive information. Of the remaining seven audits, five contained
                      findings that related solely to the timeliness of the audit process. In
                      these cases, the State was cited for not ensuring that either the
                      subgrantee audit reports or the State’s own management decisions were
                      completed within the required timeframe. While practical, this type of
                      information would not tell ACF much about how well States monitor
                      subgrantees.

                      According to ACF staff, State Single Audit findings may not be helpful.
                      Findings may provide some indication as to what a problem is, but
                      without more detail, such as the auditor’s workpapers, ACF staff do not
                      know where to begin an investigation. Staff in at least one region
                      expressed an interest in talking with the auditor to clarify information
                      in the audit but had been unsuccessful in locating the auditor.

                      Staff in eight regions raise a final concern about the utility of the State
                      Single Audit related to the auditor’s skills or knowledge of the foster
                      care program. Regional staff note that the auditor may lack experience
                      with and understanding of Federal programs, and therefore, have
                      difficulty assessing them. In particular, staff in some regions note that,
                      although some States in their region consistently have State Single
                      Audit findings every year, other States have few or none. Regional staff

    OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   18
F   I N D I N G 
S


                      believe this variety may be due to differences in the abilities of the
                      auditors, not due to differences in States’ actual grant administration.
                      Staff in most ACF regions believe they have tools, like the Child and Family
                      Services Review and Title IV-E Eligibility Review, that could indirectly reveal
                      issues with States’ monitoring of subgrantees.
                      Staff in ACF central office and regional offices indicate that their
                      oversight of States focuses on States’ administration of the foster care
                      program, not on States’ monitoring of subgrantees. However, ACF staff
                      believe that the CFSR, the Title IV-E Review, or the quarterly financial
                      report review could indirectly uncover problems with States’ subgrantee
                      monitoring. Staff in at least five ACF regions believe that problems
                      with States’ monitoring of subgrantees have or would come up as a
                      result of these reviews. These respondents claim that, in looking at
                      programmatic and fiscal outcomes during the CFSR and Title IV-E
                      Review, they are indirectly assessing subgrantee performance. They
                      believe poor performance on these reviews could expose a problem with
                      States’ monitoring of subgrantees.

                      However, when we questioned regional staff, they were unable to
                      provide specific examples of how systemic problems with States’
                      subgrantee monitoring were uncovered through these mechanisms.
                      Instead, staff in some regions offered examples of ACF identifying
                      problems with individual subgrantees as the result of one of these
                      reviews. However, uncovering issues with a particular subgrantee is
                      not the same as uncovering a systemic problem regarding the controls
                      that States have in place to assure subgrantee performance. If there is
                      a systemic problem, discovering and solving the problem for one
                      subgrantee would not impact the children served by other subgrantees
                      throughout the State who may also be performing poorly under the
                      State’s lax oversight.

                      Given that, as ACF staff point out, getting information about how
                      States monitor foster care subgrantees is not the purpose of the CFSR
                      or the Title IV-E Review, it seems unlikely that problems of this nature
                      would be discovered. While a State’s poor performance on child-specific
                      outcomes could lead a reviewer to question the State’s overall oversight
                      of foster care subgrantees, it would be up to the discretion of the
                      reviewer to pursue such an angle. Further, an indirect system of
                      monitoring, by definition, does not provide a systemic means of
                      assessment. The best ACF could expect would be to come across such
                      information in the course of conducting these reviews.


    OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   19
∆    R E C O M M E N D A T I O N S



                  RECOMMENDATIONS
                  The ACF’s oversight of States’ subgrantee monitoring does not appear to
                  be sufficient to ensure States are meeting even the minimal criteria by
                  which we assessed them. In fact, we found that monitoring systems in
                  three of the six States selected for review are inadequate according to
                  criteria we developed based on grants management requirements, and
                  three States do not communicate required grants management
                  information to subgrantees. We also found that oversight of States’
                  systems for monitoring subgrantees receives minimal attention by ACF.

                  We recommend that ACF bolster its oversight of States’ subgrantee
                  monitoring, relying on more than the Single Audit to ensure that States
                  adhere to grants management requirements. Without quality
                  monitoring, States and ACF may have little assurance that subgrantees
                  are providing appropriate, quality services to children in a fiscally
                  responsible manner. Given the extent that States appear to be using
                  subgrantees to carry out crucial foster care services, lax monitoring can
                  have a significant impact.
                  The ACF should hold States accountable for adherence to grants
                  management requirements relating to the oversight of subgrantees.
                  We outline three steps ACF should take to hold States accountable with
                  these grants management requirements.
                  1. The ACF should develop a system for routinely communicating grants
                  management responsibilities to States. We found that ACF does not
                  routinely communicate grants management requirements to States.
                  We suggest that ACF utilize its existing communication mechanisms
                  with States to routinely communicate grants management
                  requirements. The ACF could issue periodic reminders through
                  program instructions or other communications with States, such as
                  the grant award letter. Routinely communicating subgrantee
                  monitoring requirements would emphasize to States the importance
                  of monitoring, as well as remind States to consider these
                  requirements as they write contracts and grant agreements with
                  subgrantees each year.
                  2. The ACF should develop specific requirements that clarify States’
                  responsibilities for monitoring of subgrantees. Since the Federal grants
                  management requirements relating to subgrantee monitoring are
                  general, we suggest that ACF clarify States’ responsibilities by
                  developing specific requirements for State monitoring systems. These

OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   20
R   E C O        M M E N D A T               I O N      S


                      specific requirements should provide clear standards for States’
                      monitoring systems. The ACF could adopt the criteria used for this
                      study, or work with ASAM to develop their own standards. Providing
                      States with specific, measurable standards that reflect ACF’s
                      expectations for States’ subgrantee monitoring would emphasize the
                      importance of quality monitoring systems and would allow ACF to
                      better assess States’ accountability in relation to grants management
                      requirements.
                      3. The ACF should utilize its existing oversight mechanisms to ensure States
                      adhere to grants management requirements. Currently, ACF appears to
                      lack an adequate oversight mechanism to ensure that States adhere
                      to grants management requirements. The ACF should refine existing
                      oversight processes to ensure that States are held accountable with
                      Federal requirements in their administration of subawards and
                      monitoring of subgrantees.

                      To ensure that States have adequate systems for monitoring
                      subgrantees, ACF could use the CFSR or provide independent auditors
                      with specific instructions when completing States’ Single Audits. The
                      ACF could use either of these mechanisms to assess both the design of
                      States’ monitoring systems, as well as test whether States’ systems are
                      functioning appropriately. Specifically, ACF could require States to
                      submit a description of their fiscal and programmatic monitoring
                      mechanisms as part of their CFSR, including a description of the
                      frequency, methods, content, and purpose of the monitoring
                      mechanisms and whether mechanisms apply to all subgrantees or only
                      a subset of subgrantees. Staff could then include a review of a sample of
                      State subgrantee monitoring files while onsite for the CFSR to test
                      whether monitoring is functioning appropriately.

                      The ACF could also recommend revisions to OMB’s Title IV-E
                      compliance supplement to the Single Audit, as well as provide specific
                      instructions for auditors to use as part of the Single Audit review of
                      States’ subrecipient monitoring. The ACF could provide OMB with
                      proposed revisions to the Title IV-E compliance supplement that include
                      special tests and provisions for auditors to follow when assessing States’
                      subgrantee monitoring. Additionally, ACF could develop additional
                      information for auditors to use when reviewing States’ Title IV-E
                      programs, including any specific standards ACF develops outlining
                      States’ responsibilities for monitoring foster care subgrantees,
                      information about ACF’s programmatic concerns, and suggestions for


    OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM     21
R   E C O        M M E N D A T               I O N      S


                      auditing procedures. The ACF could propose including a reference to
                      this additional information in the Title IV-E compliance supplement.
                      Providing auditors with these additional directions would help ensure
                      that auditors review States’ monitoring according to ACF expectations.

                      To ensure that States are communicating required grants management
                      information to subgrantees, ACF could revise the current Title IV-E
                      State plan template. By revising the State plan template, ACF could
                      require that each State submit documentation, such as standard
                      contracts or subaward agreements, to explicitly demonstrate adherence
                      to grants management requirements. Once ACF has approved States’
                      revised Title IV-E State plan, States would only need to resubmit
                      documentation if they significantly change their contract or subaward
                      agreement provisions. In county-run States, ACF could request States’
                      standard contract or award agreement with their counties, which should
                      include the requirement that counties communicate Federal grants
                      management information to their foster care subgrantees.
                      The ACF should work with HHS to make the State Single Audit a more
                      effective tool for overseeing States’ monitoring of subgrantees.
                      As part of ACF’s overall efforts to oversee States’ monitoring of foster
                      care subgrantees, ACF should strive to enhance the effectiveness of the
                      State Single Audit. Currently, the State Single Audit is the only direct
                      tool ACF uses to assess States’ subgrantee monitoring systems.
                      However, this inspection found major concerns with the scope, quality,
                      and functioning of the Single Audit’s assessment of States’ monitoring of
                      subgrantees. While we do not recommend that ACF continue to rely
                      solely on the Single Audit for its subgrantee monitoring, we do recognize
                      that ACF will continue to utilize the Single Audit as a monitoring tool.

                      In order to help improve the Single Audit as a monitoring tool, ACF
                      should support and promote ongoing intergovernmental initiatives to
                      improve the Single Audit. The OMB has established a task force on
                      subgrantee monitoring. As part of its overall review of subgrantee
                      monitoring, it plans to assess the regulations related to subgrantee
                      monitoring for clarity and specificity. There is also an
                      intergovernmental Quality Control Review Initiative. This initiative is
                      intended to evaluate the quality of Single Audit work. Given that the
                      outcomes of these efforts will be of great benefit to ACF, the agency
                      should strive to support and highlight these efforts in order to ensure
                      that it has the resources necessary to accomplish its missions and are
                      viewed as priority initiatives.


    OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   22
R   E C O        M M E N D A T               I O N      S


                      Further, ACF should clarify the specific types of subgrantees receiving
                      Title IV-E funds that should be considered subrecipients and be subject
                      to Federal Single Audit requirements under OMB Circular A-133. The
                      ACF’s clarification to States should not rely on restating the Single
                      Audit characteristics of subrecipients and vendors, but rather should
                      specifically delineate the types of services that would render a foster
                      care subgrantee a subrecipient for the purposes of the Single Audit. For
                      instance, ACF could specify that subgrantees using Federal funds to
                      provide professional residential care and child placement services are
                      carrying out the public purposes of the foster care program, and,
                      therefore, qualify as subrecipients. However, entities that provide goods
                      or services ancillary to the operation of the foster care program, such as
                      temporary staffing companies or administrative supply companies,
                      would not be considered subrecipients.




    OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   23
∆      A G E N C Y                   C O M M E N T S



                  AGENCY COMMENTS
                  In its comments on our draft reports ACF concurs with the objectives of
                  our recommendations and describes its intended corrective actions,
                  which are generally consistent with our suggestions. The ASAM
                  supports our recommendations to ACF. The complete text of both
                  agencies’ comments can be found in Appendix D.

                  In response to our recommendation that ACF should hold States
                  accountable for adherence to grants management requirements relating
                  to the oversight of subgrantees, ACF outlined its actions in relation to
                  the three steps we suggested to implement this recommendation. In
                  response to the first step we suggested, ACF committed to routinely
                  communicating grants management responsibilities to States. The ACF
                  intends to do this by attaching a list of terms and conditions that will
                  include applicable administrative rules and program regulations to
                  initial Foster Care awards. Further, ACF will refer to these terms and
                  conditions and include a statement highlighting the importance of
                  subrecipient monitoring in award letters. We agree with this course of
                  action, and support ACF in its efforts to emphasize the importance of
                  quality subgrantee monitoring systems to States.

                  In response to the second step we suggested, that ACF clarify States’
                  responsibilities for subgrantee monitoring, ACF supported the goal of
                  promoting quality monitoring and ensuring better accountability for
                  program performance. However, ACF questioned whether establishing
                  a monitoring standard for States was the best course of action, given the
                  current Federal preference for supporting States’ flexibility in
                  structuring their management systems. Instead, ACF is considering
                  several steps, including affirming subgrantee monitoring as an agency
                  priority and providing technical assistance to States around their
                  monitoring systems. We agree that States need flexibility to design
                  monitoring systems that are appropriate to their use of subgrantees.
                  However, we believe that establishing standards for States’ monitoring
                  systems is necessary to effectively hold States accountable, and can
                  function as a structure within which States can have flexibility to
                  design monitoring systems appropriate to their situations.

                  Our study criteria set up such a structure, which ACF could adapt. For
                  example, ACF could require that States conduct at least one type of
                  programmatic monitoring and one type of fiscal monitoring for all

OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   24
A G   E N     C Y    C O        M M E N T             S


                    subgrantees that are receiving more than a base amount of funding and
                    are providing core programmatic services. By providing States with
                    criteria that set minimum expectations for States’ subgrantee
                    monitoring, ACF could preserve States’ flexibility in designing the type
                    and extent of their monitoring mechanisms, yet maintain ACF’s ability
                    to assess whether States’ subgrantee monitoring systems are
                    acceptable.

                    In fact, ACF indicates that it is considering adopting a qualitative
                    version of the monitoring criteria used in this inspection as part of its
                    field reviews. In addition, ACF indicates that it would provide some
                    version of its qualitative subgrantee monitoring standards to States.
                    We strongly support this course of action, which would meet the intent
                    of our recommendation. We also support ACF in taking additional
                    steps, such as providing technical assistance as States develop and
                    bolster their subgrantee monitoring systems, thus facilitating quality
                    subgrantee monitoring above and beyond a minimum standard.

                    In response to our final suggestion that ACF utilize its existing
                    oversight mechanisms to ensure States adhere to grants management
                    requirements, ACF is considering including specific reference to
                    subrecipient monitoring responsibilities in the Title IV-E Compliance
                    Supplement to the OMB Circular A-133 Single Audit. The ACF also
                    indicates earlier in its comments that it is considering assessing State
                    subgrantee monitoring as part of its field reviews, depending on
                    resources. We strongly encourage ACF to take both of these actions.

                    In addition, ACF indicates that it will consider whether to issue a
                    program instruction to State grantees clarifying the distinction between
                    “subrecipients” and “vendors,” similar to the May 9, 2002 memorandum
                    ACF sent to ACF grants officers. We support this action, but strongly
                    encourage ACF to be explicit in its instructions to States around
                    designating foster care subgrantees as “subrecipients,” and not merely
                    restate the OMB Circular A-133 definitions as the May 9, 2002
                    memorandum does. We also refer ACF to ASAM’s comments to this
                    report. The ASAM provides some clarification on this issue, instructing
                    ACF to direct States to treat subgrantees providing basic services that
                    are clearly core to the success of the program as subrecipients. Further,
                    ASAM finds that in cases where there is “clear doubt as to the
                    subrecipient/vendor treatment, the State should be directed to treat as a
                    subrecipient.”



 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   25
A G   E N     C Y    C O        M M E N T             S


                    Finally, in responding to our recommendation that ACF work with HHS
                    to make the State Single Audit a more effective tool for overseeing
                    States’ monitoring of subgrantees, ACF indicates that it had proposed
                    several modifications to OMB regarding the auditor’s process.
                    Specifically, ACF proposed that auditors should describe and comment
                    on States’ systems for making subrecipient/vendor determinations, as
                    well as on States’ systems for monitoring subrecipients. In addition,
                    ACF indicated its intention to explore future possibilities for
                    strengthening the Single Audit. We enthusiastically support these
                    proposals for improving the Single Audit, and will look to ACF to
                    continue to exhibit such grants management leadership in conjunction
                    with the department.




 OEI-05-03-00060    OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   26
     ∆            A P P E N D I X                 ~      A



                        METHODOLOGY
                        To assess States’ monitoring of subgrantees we conducted site visits in
                        six States. To assess ACF’s oversight of States’ monitoring, we
                        interviewed staff in all 10 ACF regional offices and central office.
                        State Selection
                        We selected the six study States based on the following factors:
                        (1) maximizing coverage of Title IV-E funds; (2) representing both State-
                        administered and county-administered States; (3) maximizing coverage
                        of ACF regions; and (4) avoiding States participating in Child and
                        Family Services Reviews or in the OIG region VII’s case study of eight
                        States’ foster care programs.

                        In our final selection of States, we reviewed four State-administered
                        systems and two county-administered systems. Overall, the six States
                        comprise over 45 percent of the Federal FY 2002 Title IV-E funds and
                        are located in 6 of the 10 ACF regions. The States and counties we
                        reviewed have more than 1,500 foster care subgrantees during States’
                        FY 2003.
                        Subgrantee Selection
                        Due to the intensity of our case file review, we limited the number of
                        subgrantee files selected. We estimated that we could complete between
                        15 to 20 case file reviews in each State. We used the following
                        procedure to ensure that our selection of subgrantees included
                        representation of both child placement agencies and residential
                        facilities, and included subgrantees that served a high volume of Title
                        IV-E children, as well as those that served a low volume of Title IV-E
                        children. Our pre-inspection research indicated that States’ monitoring
                        practices might vary between these different types of subgrantees.

                        From each State and county selected, we requested a list of all foster
                        care subgrantees providing child placement or residential care to Title
                        IV-E children in State FY 2003. To select subgrantees, we stratified
                        each subgrantee list, first by type of subgrantee (i.e., child placement
                        agencies and residential facilities) and then by the number of Title IV-E
                        children served. To stratify by number of children served, we calculated
                        the average number of children served, and then designated
                        subgrantees as low or high volume, according to where they fell in
                        relation to the average. We then randomly selected subgrantees from
                        each of the four groups: low-volume child placement agencies, high-



OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   27
    A   P   P E
              
 N D   I X ~       A


                      volume child placement agencies, low-volume residential facilities, and
                      high-volume residential facilities.

                      In each State we randomly selected 16 foster care subgrantees. In
                      county-run States, we randomly selected eight subgrantee files in each
                      of the two selected counties. In State D, one subgrantee did not fit our
                      sampling criteria and was discarded in our analysis. In State B, a few
                      selected subgrantees had more than 1 contract with the State, bringing
                      the total number of files reviewed up to 19. (See Table E.)

                                                               TABLE E
                           Sample and Universe of Subgrantees Serving Title IV-
                           E Eligible Children During States' Fiscal Year 2003
                                        State/County                             Sample       Universe
                              State A                                              16           472
                              State B                                              19           132
                              State C, County 1                                     8           224
                              State C, County 2                                     8            68
                              State D                                              15           172
                              State E, County 1                                     8           132
                              State E, County 2                                     8            49
                              State F                                              16           263
                              Total Subgrantees                                    98         1,512

                      Although State D is primarily State-administered, a portion of the
                      foster care program is privately administered. For the purposes of this
                      study, we focused only on the portion of State D’s program that is State-
                      administered. State D contracts with subgrantees through a central
                      office and through local offices and regional offices. Our file review
                      included subgrantees hired by all three types of entities. The majority
                      of subgrantees were selected from the State’s central office, as this
                      entity has significantly more subgrantees than any of the regional or
                      area offices.
                      Subgrantee File Review
                      After collecting data on the State’s design of its subgrantee monitoring
                      system through document review and staff interviews, we reviewed
                      States’ subgrantee files, comparing monitoring documentation to our
                      criteria to verify that the system was functioning according to its
                      design. For our file review, we used a structured data collection
                      instrument to examine State and county contracts with subgrantees, as
                      well as to examine other evidence of monitoring, such as site visit
                      reports, audit reports, financial reports, and licensing reports.


OEI-05-03-00060       OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM              28
    A   P   P E N D   I X ~       A


                      If States were unable to provide us with the necessary documentation of
                      their monitoring activities onsite, we allowed them additional time to
                      locate and send us the documentation. In cases where documents were
                      unavailable, States were not given credit for carrying out monitoring for
                      these particular subgrantees.

                      It was not our intention to identify the exact proportion of subgrantees
                      actually receiving monitoring in each State. Rather, we sought to
                      identify whether States’ monitoring systems were functioning by
                      verifying that selected subgrantees were monitored as the State
                      described.
                      Review of ACF Oversight
                      Our interviews with ACF focused on ACF’s processes for overseeing
                      States’ subgrantee monitoring systems. We asked specifically about
                      ACF’s review of State Single Audit findings related to States’
                      subgrantee monitoring, and about other major review mechanisms that
                      might be used to obtain information about States’ subgrantee
                      monitoring. We conducted one regional interview in person and all
                      other ACF interviews via telephone.




OEI-05-03-00060       OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   29
   ∆
        A P P E N D I X                 ~      B



                     STATE PRACTICES FOR COMMUNICATING GRANTS
                     MANAGEMENT INFORMATION
                     The OMB Circular A-133 and 45 CFR Part 74 outline the Federal
                     requirements pertaining to the grants management information that
                     States must communicate to subgrantees. States were considered to
                     meet the expectations set out in these requirements if they had
                     communicated required grants management information to at least
                     75 percent of the subgrantees we reviewed. This appendix includes the
                     complete results of our review, and information about State practices
                     above and beyond our minimal criteria.
                     Identifying that grants include Federal foster care funds
                     The OMB Circular A-133, §__.400(d)(1) requires that States identify
                     Federal awards by providing the “best information available to describe
                     the Federal award,” including such award characteristics as the “CFDA
                     title and number, award name and number, award year, . . . and name
                     of Federal agency.” To meet our criteria, States only had to imply that
                     a subgrantee’s award included Federal funds. As described in our
                     findings, only three States met these criteria.

                     We also examined whether States identified ACF as the Federal agency,
                     and whether States identified the Catalog for Federal Domestic
                     Assistance (CFDA) number of the award. The CFDA provides
                     information about grants, including a listing of applicable Federal
                     regulations. We found that only one county provides its subgrantees
                     with the CFDA number. None of the selected States or counties
                     referred to ACF in their communication with subgrantees.
                     Communicating Federal grants management requirements
                     To meet our criteria for communicating grants management
                     requirements, each State had to meet each of the four sub-criteria as
                     detailed in this section. As described in our findings, four States met all
                     four sub-criteria. (See Table F.)

                     States must communicate applicable Federal requirements to
                     subgrantees, including the following major grants management
                     requirements:
                     o 	 the Uniform Administrative Requirements for Awards and
                         Subawards (45 CFR Part 74), and
                     o 	 the Single Audit Act (implemented by OMB Circular A-133).



OEI-05-03-00060      OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   30
    A   P   P E N D   I X ~        B


                       To meet our criteria, States only had to imply that these major Federal
                       requirements applied. In some States, subgrantees are considered to be
                       “vendors,” and are not subject to OMB Circular A-133. Five States met
                       these minimum criteria.

                                                                TABLE F
                  Adherence with Requirements to Communicate Federal Grants
                  Management Requirements
                                                                     State State State State State State
                                                                       A     B     C     D     E     F
                      At least imply that
                                                                         _      Yes     Yes    Yes   Yes   Yes
                      45 CFR Part 74 applies
                      At least imply that OMB Circular
                                                                         N/A    Yes     N/A    Yes   Yes   N/A
                      A-133 applies

                      Specify that State & Federal
                                                                         _      Yes     Yes    Yes   Yes   Yes
                      officials have access to records

                      Specify that subgrantees must
                      pass down requirements to sub-                     _      Yes      _     Yes   Yes   Yes
                      subgrantees
                      In Adherence                                        _    Yes       _     Yes   Yes   Yes
                  Source: OEI State Site Visit Data

                       We also examined whether States cited or explained Federal grants
                       management requirements 45 CFR Part 74 and OMB Circular A-133.
                       We found that two States and two counties cite 45 CFR Part 74 but do
                       not explain it. We also found that of the three States that require
                       Single Audits for some or all subgrantees, all three at least cited the
                       OMB Circular A-133. Two of these States explained Single Audit
                       requirements more extensively in a manual for auditors and
                       subgrantees.

                       Further, we assessed whether States informed subgrantees of Federal
                       requirements pertaining to ACF’s and States’ ability to monitor,
                       including:
                       o 	 the requirement to permit government officials access to 

                           subgrantees’ records, and 

                       o 	 the requirement that subgrantees pass through these 

                           requirements to any entity that they fund. 





OEI-05-03-00060        OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM                 31
       A   P      P E N D    I X ~           B

                            To meet our criteria, States had to specifically communicate these
                            requirements to their subgrantees. Two States did not meet these
                            criteria because they did not communicate one or both of these
                            requirements to selected subgrantees.




OEI-05-03-00060             OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   32
      ∆           A P P E N D I X                  ~      C


                        EVALUATION CRITERIA DEVELOPMENT
                        To develop our evaluation criteria, we reviewed the following
                        requirements and guidance:

                        o 	 Federal requirements, including 45 CFR Part 74,
                            45 CFR Part 92, and OMB Circular A-133;

                        o 	 OMB Circular A-133 compliance supplements;

                        o 	 applicable HHS grants management guidance;

                        o 	 subgrantee monitoring guidance produced for other HHS programs;

                        o 	 guidance for other Federal departments;

                        o 	 industry guidance from Management Concepts and Thompson
                            Publishing Group;

                        o 	 grants management reports from the Government Accountability
                            Office, OIG, ASAM, and Assistant Secretary for Planning and
                            Evaluation; and

                        o 	 Single Audit reports containing subrecipient monitoring findings for
                            States’ foster care programs.

                        From these sources, we developed criteria for: (1) assessing States’
                        adherence to the intent of the broad monitoring requirements set forth
                        in 45 CFR Part 74 and OMB Circular A-133; and (2) assessing whether
                        States were following specific requirements for communicating grants
                        management information to subgrantees set forth in 45 CFR Part 74
                        and OMB Circular A-133.
                        Evaluation Criteria Presented to ASAM
                        We presented our evaluation criteria to ASAM staff in its draft form (see
                        chart on the next page for a description of the criteria). The ASAM staff
                        found our criteria to be both reasonable and consistent with Federal
                        requirements. Below are the draft criteria that we presented to ASAM.
                        In finalizing these criteria, we primarily changed the presentation
                        format for readability and clarity. The criteria in their final format are
                        presented in the body of the report. We did not present ASAM with the
                        methodology we used to assess adherence to the criteria.




OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   33
    A   P   P E N D      I X ~        C        




                         Federal Regulatory and Policy Monitoring Requirements

             Broad Monitoring Requirements
             “Monitor the activities of subrecipients as necessary to ensure that Federal awards
             are used for authorized purposes in compliance with laws, regulations, and the
             provisions of contracts or grant agreements and that performance goals are
             achieved.” [OMB Circular A-133, §__.400(d)(3)]
                    We anticipate measuring the broad monitoring requirements using the
                    following, more specific, criteria:
                    o   contract or award allows for monitoring
                    o   communication to subgrantee describes monitoring

                    o   fiscal information
                          -- collect (possible mechanisms: fiscal reports, site visits, audit)
                          -- review
                          -- follow up
                    o   performance information
                         -- collect (possible mechanisms: progress reports, site visits, audit)
                         -- review
                         -- follow up

             Specific Monitoring Requirements
                    o   Ensure specific OMB Circular A-133 audit requirements are met.
                    o   Federal requirements for monitoring are communicated.
                    o   Federal awards are identified to subgrantees.
                    o   Require sufficient access to records to perform monitoring functions.




OEI-05-03-00060           OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   34
          ∆       A P P E N D I X                    ~         D



                      AGENCY COMMENTS




OEI-05-03-00060       OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   35
    A G     E N   C Y     C O       M M E N T             S 





OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   36
    A G     E N   C Y     C O       M M E N T             S 





OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   37
    A G     E N   C Y     C O       M M E N T             S 





OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   38
    A G     E N   C Y     C O       M M E N T             S 





OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   39
    A G     E N   C Y     C O       M M E N T             S 





OEI-05-03-00060         OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   40
  ∆
        A C K N O W L E D G M E N T S



                    This report was prepared under the direction of William C. Moran,
                    Regional Inspector General for Evaluation and Inspections in the
                    Chicago regional office. Other principal Office of Evaluation and
                    Inspections staff who contributed include:

                    Susan Otter, Team Leader
                    Ann Maxwell, Team Leader

                    Mara Siler-Price, Lead Analyst

                    Anna Fleming, Program Analyst

                    Laura Torres, Program Analyst

                    Sara Zuiderveen, Intern

                    Linda Hall, Program Specialist

                    Elise Stein, Director, Public Health and Human Services Branch

                    Technical Assistance

                    Barbara Tedesco, Mathematical Statistician




OEI-05-03-00060     OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM   41
  ∆
        E N D   N O T E S




                    1	   According to Administration for Children and Families (ACF)
                         estimates, 810,000 children spent some time in Title IV-E foster care
                         during Federal FY 2002. There were an estimated 534,000 children in
                         Title IV-E foster care on September 30, 2002. Retrieved
                         March 11, 2004 from:
                         www.acf.hhs.gov/programs/cb/dis/afcars/publications/afcars.htm.

                    2	   We use the term “subgrantee,” as opposed to terms that are commonly
                         used by States but have specific technical definitions in Federal grants
                         management requirements, such as “contractor” or “subrecipient.”

                    3	   Task Force members include staff from: the Office of Management and
                         Budget (OMB); the Departments of Health and Human Services (HHS),
                         Transportation, Agriculture, Education, Justice, Labor, and Navy; the
                         Federal Emergency Management Agency; the National Science
                         Foundation; and the States of Louisiana and Texas.

                    4	   A 2002 Government Accountability Office (GAO) study, “Welfare
                         Reform: Federal Oversight of State and Local Contracting can be
                         Strengthened,” GAO-02-661, 2002, examined State and local agency
                         monitoring of subgrantees receiving Temporary Assistance for Needy
                         Families funds, and found that ACF staff were not aware of monitoring
                         problems identified in States’ Single Audit reports. These audit reports
                         cited weaknesses in States’ monitoring, including inadequate fiscal and
                         program monitoring of local contracting entities.

                         Congress has also expressed concern that the Health Resources and
                         Services Administration (HRSA) does not adequately monitor grantees’
                         oversight of their subgrantees. Consequently, in 2001, the Senate
                         Finance Committee requested that the Office of Inspector General
                         (OIG) review HRSA’s oversight of Ryan White CARE Act Title I and
                         Title II grantees and grantees’ oversight of their subgrantees.

                    5	   The National Survey of Child and Adolescent Well-Being (NSCAW)
                         found that at least 90 percent of States used subgrantees to provide
                         child placement and residential care that specifically includes
                         treatment. This study did not include other commonly used private
                         residential facilities, such as group homes, residential schools, or




OEI-05-03-00060     OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM       42
                       emergency shelters in their survey. Further, there has been little
                       research into the extent to which States use subgrantees: whether
                       States use subgrantees to serve a small subgroup of the State’s foster
                       children or for the majority of foster children in the State. The NSCAW
                       reports that 70 percent of States use subgrantees statewide to provide
                       residential treatment services, and an additional 26 percent use
                       subgrantees “in some counties.” The NSCAW local agency survey also
                       found that using subgrantees to provide foster care services is more
                       common in urban areas, larger counties, larger agencies, and State-
                       administered foster care systems. Department of Health and Human
                       Services, Administration for Children, Youth, and Families, “National
                       Survey of Child and Adolescent Well-Being: State Child Welfare
                       Agency Survey: Report” and “National Survey of Child and Adolescent
                       Well-Being: Local Child Welfare Agency Survey: Report,” Washington,
                       2001.

                  6	   “Petro Issues Montgomery County Foster Care Audit,” Ohio Auditor of
                       State News Release. February 10, 2000.

                  7	   There are two sets of HHS regulations that provide Uniform
                       Administrative Requirements: 45 CFR Part 74, which typically applies
                       to awards to non-governmental entities, and 45 CFR Part 92, which
                       typically applies to awards to governmental entities. Until very
                       recently, States receiving Title IV-E funds were subject to the
                       requirements under 45 CFR Part 74, which are very similar to those
                       under 45 CFR Part 92. Recently, HHS redesignated Title IV-E State
                       grants to be subject to 45 CFR Part 92.

                  8	   OMB Circular A-133, §__.400(d) states that “. . . a pass-through entity
                       shall perform the following for the Federal awards it makes:
                       . . . (3) Monitor the activities of subrecipients as necessary to ensure
                       that Federal awards are used for authorized purposes in compliance
                       with laws, regulations, and the provisions of contracts or grant
                       agreements and that performance goals are achieved.”

                  9	   OMB Circular A-133, §__.400(d)(1) and §__.400(d)(2).

                  10   From the template ACF provides to States for their Title IV-E State
                       plan, requiring States to sign that they agree with these provisions.




OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM        43
                  11   45 CFR §1356.20(e)(4).

                  12   Title XI of the Social Security Act: 42 USC §1320a-1a.

                  13   The HHS is responsible for resolving Single Audit findings related to
                       HHS programs. These findings are received by HHS and assigned for
                       formal resolution. Findings relating to the Title IV-E program would
                       likely be assigned to ACF, however, some findings may be assigned to
                       other HHS entities, such as cross cutting findings.

                  14   OMB Circular A-133, §__.400(c)(5).

                  15   These studies were produced as a series of reports, all of which can be
                       found on the OIG Web site: www.oig.hhs.gov. For example, one audit
                       included in this series was: Office of Inspector General, “Review of New
                       York State’s Efforts to Account For and Monitor Sub-Recipients’ Use of
                       Public Health Preparedness and Response to Bioterrorism Program
                       Funds,” (A-02-03-02009), 2003.

                  16   OMB Circular A-133, §__.400 (d)(3).

                  17   This framework originates from: “Office of Evaluation and Inspections
                       Grants Oversight Framework,” March 2003. This document was
                       developed by the Office of Evaluation and Inspections Grants
                       Management Workgroup in response to the Secretary’s initiative.

                  18   Staff from the Office of the Assistant Secretary for Administration and
                       Management were presented with and approved our draft criteria. We
                       did not present them with the methodology we used to operationalize
                       the criteria.

                  19   Historically, the annual audit was an integral part of setting the rates
                       the State paid for foster care services. However, ever since the State
                       legislature decided to set State foster care rates, the rate-setting office
                       has had little use for the audits. It continues, due to historical
                       precedence, to receive and track the submission of the audits. It has
                       also maintained the responsibility of reviewing the audits.

                  20   The extent to which auditors choose to review States’ monitoring of
                       vendors is unknown. OMB Circular A-133, §__.210(f) includes a




OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM          44
                       provision that allows the auditor to review States’ interactions with
                       vendors: “. . . the auditee is responsible for ensuring compliance for
                       vendor transactions which are structured such that the vendor is
                       responsible for program compliance or the vendor's records must be
                       reviewed to determine program compliance. Also, when these vendor
                       transactions relate to a major program, the scope of the audit shall
                       include determining whether these transactions are in compliance with
                       laws, regulations, and the provisions of contracts or grant
                       agreements . . . .”

                       However, the auditor needs to make several decisions in order to
                       perform such a review. The auditor must first decide if the vendor is
                       responsible for program compliance. If so, then the auditor must decide
                       whether the vendor’s transactions are in compliance with laws,
                       regulations, and the provision of contracts or agreements. The auditor
                       uses judgment about how to assess whether these transactions comply
                       with laws, and whether to review the State’s monitoring of the vendor
                       to do so.

                  21   Ohio State staff stated that fiscal oversight of foster care subgrantees
                       has been bolstered at the county and State levels since these audits
                       were conducted.




OEI-05-03-00060   OVERSIGHT   OF   SUBGRANTEE MONITORING   IN THE   FOSTER CARE PROGRAM           45
